U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

July 1, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Scott Wehmhoefer v. United States of America,
S.Ct. No. 20-8291

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 7, 2021,
and placed on the docket on June 11, 2021. The government’s response is due on July 12, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including August 11, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-8291
WEHMHOEFER, SCOTT
USA

BRIANNA FULLER MIRCHEFF
DEPUTY FEDERAL PUBLIC DEFENDER
321 EAST 2ND STREET
LOS ANGELES, CA 90012-4202
213-894-4408
BRIANNA_MIRCHEFF@FD.ORG
213-894-0081(Fax)

